                            Department of Energy
                               Washington, DC 20585

                                 October 30, 2009




The Honorable Dr. Steven Chu
Secretary of Energy
Washington, DC 20585

Dear Secretary Chu:

I am pleased to submit the Office ofInspector General's (OIG) Semiannual Report to
Congress. This report summarizes significant OIG activities and accomplishments during
the six month period ending September 30,2009. This report reflects our continuing
commitment to focus OIG efforts on the issues and concerns most critical to you, the
Administration, the Congress, and the taxpayer.

We look forward to working with you on matters of mutual interest.




                                                 Grego H. Friedman
                                                 Inspector General

Enclosure




                               (i)   Printed with soy ink on recycled paper
This page intentionally left blank.
                             SEMIANNUAL
                             REPORT TO CONGRESS




Table of Contents

Message from the Inspector General . . . . . . . . . . . . . . . . . . . . . . . . 2

Statistical Summary of OIG Activities . . . . . . . . . . . . . . . . . . . . . . . 4

Accomplishments Addressing Management Challenges . . . . . . . . . . 5

Other Significant Reviews . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

Investigative Outcomes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

Positive Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
      Highlights Based on Office of Inspector General Work . . . . . . . . . . . . . . . . 23
      Congressional Responses . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
      Hotline System . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
      Management Referral System . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
      Qui Tams . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
      Legislative and Regulatory Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

Appendix 1 – Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
      Recovery Act Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
      Audit Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
      Inspection Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31

Appendix 2 – Tables . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32
      OIG Issued Audit Reports with Recommendations for
        Better Use of Funds . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32
      OIG Issued Audit Reports with Questioned Costs . . . . . . . . . . . . . . . . . . . . 33
      Reports Lacking Management Decision . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34
      Prior Significant Recommendations Not Implemented . . . . . . . . . . . . . . . . . 34
      Summary of Inspection Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35
      Summary of Investigative Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36




                                                  APRIL 1, 2009 – SEPTEMBER 30, 2009                              1
                                             SEMIANNUAL
                                             REPORT TO CONGRESS




Message from the Inspector General

                                        The Department of Energy’s Office of Inspector General is pleased
                                        to submit our Semiannual Report to Congress for the period
                                        ending September 30, 2009. This report highlights key
                                        accomplishments of the Office of Inspector General, particularly
                                        pertaining to our efforts to work with agency management to
                                        ensure the economy, efficiency, and effectiveness of Department of
                                        Energy operations.

                                         During this reporting period, we focused on providing oversight of
                                         the Department’s implementation of the American Recovery and
                                         Reinvestment Act of 2009 (Recovery Act). Under the Recovery Act,
                                         the Department of Energy received $36.7 billion for various
                                         science, energy, and environmental programs and initiatives. The
Recovery Act and the additional programmatic resources have had a transformative impact on the
operations and activities of the Department. In recognition of the need for effective oversight to protect
taxpayer interests, the Recovery Act included the creation of the Recovery Accountability and Transparency
Board specifically including the Department of Energy’s Inspector General as a member, and mandated
specific actions by the Inspector General community.

With these responsibilities in mind, this office has developed a multi-phase strategy to provide the most
effective oversight possible with available resources. The strategy focuses on achieving the accountability
and transparency goals clearly established in the Recovery Act. In this regard, we have established proactive
efforts to evaluate internal control structures of Recovery Act programs; worked to ensure that such
programs are periodically reviewed to determine if they are meeting established objectives; developed
strategies for preventing and detecting possible unlawful acts associated with
Recovery Act funds; and, implemented special programs called for in the
Recovery Act to protect whistleblowers who feel they have been retaliated
against for their disclosures.

Since issuing our last Semiannual Report in April of this year, we have
completed several reviews and initiatives relating to energy concerns and
the Recovery Act. For example, we have issued reports pertaining to:
   ■   The Department’s Management of the Energy Star Program;
   ■   The Department’s Efforts to Meet Accountability and Performance
       Reporting Objectives of the Recovery Act;
   ■   The Department of Energy's Acquisition Workforce and its Impact on Implementation of the
       Recovery Act;




 2      OFFICE OF INSPECTOR GENERAL
                                             SEMIANNUAL
                                             REPORT TO CONGRESS




   ■   Management of Energy Savings Performance Contract Delivery Orders at the Department; and,
   ■   The Department’s Opportunity for Energy Savings Through the Use of Setbacks in its Facilities.

In addition, the Office of Inspector General has also conducted nearly 100 fraud awareness briefings to
more than 8,000 individuals, including Federal and contractor personnel as well as state and local entities.
The briefings serve to educate individuals on specific vulnerabilities within the programs, contracts, and
grants for which they are responsible. This process has also familiarized these individuals as to the role and
responsibilities of the Office of Inspector General in Department-wide efforts to prevent and detect fraud.

The Department of Energy has an extraordinary mission, which is vitally important to the future of the
Nation. One of its mission goals is to provide effective stewardship over the billions of American taxpayers
dollars entrusted to it under the Recovery Act. We look forward to working with program officials,
Department management, and others in our mutual effort to protect the interests of the U.S. taxpayer as
this process unfolds.




                                                       Gregory H. Friedman
                                                       Inspector General




                                                             APRIL 1, 2009 – SEPTEMBER 30, 2009            3
                                    SEMIANNUAL
                                    REPORT TO CONGRESS




              Statistical Summary
              of OIG Activity For Period Ending
              September 30, 2009


        Public Reports Issued (audit and inspection)               42
        Dollars Put to Better Use                          $49,900,000
        Questioned Costs                                   $43,509,539
        Hotline Complaints and Inquiries                          888

        Criminal Convictions                                       14
        Suspensions/Debarments                                     21
        Civil/Administrative Actions Taken                         67
        Open Qui Tam Investigations                                16

        Dollars Recovered (Fines/Settlements/Recoveries)    $8,094,878




4   OFFICE OF INSPECTOR GENERAL
                                            SEMIANNUAL
                                            REPORT TO CONGRESS




                     Accomplishments Addressing
                     Management Challenges
Each year, the Office of Inspector General (OIG) identifies what it considers to be the most significant
management challenges facing the Department. This effort highlights those programs and operations that
are, in our judgment, the most difficult to manage as well as those with the most significant demonstrated
performance problems. The OIG determined that the most serious challenges facing the Department are in
the areas of:
   ■   Contract Administration
   ■   Cyber Security
   ■   Energy Supply
   ■   Environmental Cleanup
   ■   Safeguards and Security
   ■   Stockpile Stewardship

Highlights of our work during this reporting period are categorized by each management challenge area.




 CONTRACT ADMINISTRATION


Recovery Act Accountability and Performance Reporting Objectives

In response to the Recovery Act’s requirement for accountability and transparency, the Office of
Management and Budget issued guidance requiring the Department to compile and report a wide variety of
funding, accounting, and performance information. We initiated a review to determine if the Department
had ensured that Recovery Act funds can be appropriately tracked and are transparent to the public, and
whether the benefits of the expenditures can be properly measured and reported clearly, accurately, and in a
timely manner. Several challenges were identified relating to Recovery Act performance management,
accounting and reporting accuracy, and timeliness that should be addressed and resolved. While much has
been done to mitigate these challenges, additional work is necessary if the Department is to successfully
manage Recovery Act-related risks. We made a number of recommendations that could help enhance the
Department’s ongoing efforts. (OAS-RA-09-04)



             Public reports are available in full text on our website at www.ig.energy.gov



                                                           APRIL 1, 2009 – SEPTEMBER 30, 2009           5
                                             SEMIANNUAL
                                             REPORT TO CONGRESS




Aircraft Refurbishment Contract Improvements

During our audit of the Office of Secure Transportation, we found that cost increases of about $1 million
and four separate work stoppages associated with contract modifications could have been avoided for its
most recent acquisition and refurbishment of a DC-9 aircraft. Management generally agreed with our
recommendations to improve the contracting process by fully involving aviation management experts in the
decision making process and, to the extent practical, by minimizing uncertainties prior to contract award.
(DOE/IG-0815)


Closure of Subcontracts at Savannah River Site, Oak Ridge National
Laboratory, and East Tennessee Technology Park

Our review at Savannah River Site (Savannah River), Oak Ridge National Laboratory (ORNL), and East
Tennessee Technology Park disclosed that subcontracts were not always closed in a timely manner because
management at these facilities had not included a requirement for timely closure. This issue becomes more
significant because these DOE sites will rely, in part, on subcontractors for Recovery Act activities.
(OAS-L-09-09, OAS-L-09-10)


Fire Protection Deficiencies at Los Alamos National Laboratory

We initiated this audit to determine whether pre-existing fire protection deficiencies at the Los Alamos
National Laboratory (Los Alamos) had been addressed. Our review disclosed that the managing and
operating contractor had not resolved many of the fire protection deficiencies that had been identified in
early 2006:
   ■   Of the 296 pre-existing deficiencies we selected for audit, 174 (59 percent) had not been corrected;
       and,
   ■   A substantial portion of the uncorrected deficiencies, 86 (49 percent), were considered to be
       significant enough to warrant compensatory actions until the deficiency was corrected or was tracked
       to closure through implementation of corrective actions.

While management disagreed with our conclusions regarding the potential impact of the fire protection
deficiencies, it did however, express its agreement with the proposed corrective actions and
recommendations. In addition, officials initiated action to reassess and correct individual fire protection
problems. (DOE/IG-0816)




 6      OFFICE OF INSPECTOR GENERAL
                                             SEMIANNUAL
                                             REPORT TO CONGRESS




Contractor for Office of River Protection Performing Inherently
Governmental Functions

Our audit disclosed that the Office of River Protection (ORP) did not properly administer site contractor-
performed functions. Specifically, ORP:
   ■   Allowed site contractor employees to perform work that was inherently governmental, which created
       potential conflicts of interest; and,
   ■   Assigned site contractor employees the responsibility to respond to Congressional inquiries related to
       OIG and the Government Accountability Office reports.

We made several recommendations to address these concerns. (OAS-M-09-02)


Department’s Management of Its Energy Savings Performance
Contract Program

We initiated this follow up audit to evaluate the Department's use of Energy Savings Performance
Contracts (ESPC). This review of four of the Department's largest ESPC delivery orders, valued at
$256 million, determined that the Department (1) had not always effectively used ESPC orders to achieve
energy savings; and, (2) had not ensured that the Government's interests were adequately protected in this
process. As such, the Department may risk spending up to $17.3 million more than it will realize in energy
savings. Management generally concurred with our findings and recommendations and pledged to take or
continue previously prescribed corrective actions to address the weaknesses identified in our reports.
(DOE/IG-0822)


“Best Buy” Strategies Needed for Purchases at Bonneville

Approximately 5,200 purchases were made by Bonneville Power Administration (Bonneville) officials to
acquire materials and equipment valued at more than $162 million. We initiated this audit to determine
whether goals and objectives were met for Bonneville’s acquisition program. We found that controls were
not effectively implemented to ensure that these purchases were in the Department’s best interest. Further,
Bonneville officials had not taken timely action, and in some instances took no action, to correct previously
identified procurement-related weaknesses. We made several recommendations designed to help improve
the process for acquiring materials and equipment. (DOE/IG-0824)




             Public reports are available in full text on our website at www.ig.energy.gov



                                                            APRIL 1, 2009 – SEPTEMBER 30, 2009           7
                                             SEMIANNUAL
                                             REPORT TO CONGRESS




Potentially Unallowable Payments to Facility Contractors for Fines,
Penalties, and Settlements

We initiated this audit to determine whether the Department’s process for managing contractor fines,
penalties, and other legal costs was effective. Our audit testing revealed that the Department did not fully
implement processes for managing the cost of legal services and settlements. We identified instances where
payments were made for costs that, in certain cases, were potentially unallowable. Specifically, contractors
we reviewed were permitted to claim legal costs directly associated with unallowable fines and penalties.
The Department also allowed payments to contractors for a number of unauthorized settlements and for
settlements that were made without a review of the facts and circumstances surrounding alleged contractor
“managerial personnel” misconduct. Management agreed that corrective action was necessary to prevent
future improper payments. (DOE/IG-0825)




 CYBER SECURITY


Protection of Unclassified Sensitive Electronic Information

We conducted a review that identified opportunities to strengthen the protection of all types of sensitive
unclassified electronic information. Our testing revealed that the weaknesses identified were attributable, at
least in part, to Headquarters programs and field sites that had not implemented existing policies and
procedures requiring protection of sensitive electronic information. Management generally concurred with
the report's recommendations and pledged to take action to address the weaknesses identified in our report.
(DOE/IG-0818)


National Nuclear Security Administration’s Enterprise Secure
Network Project

We initiated this audit to determine whether the National Nuclear Security Administration (NNSA)
Enterprise Secure Network (ESN) project was adequately managed and meeting its intended goals and
objectives. NNSA was mandated to develop the ESN for planning, analyzing, testing, and evaluating
options to improve cyber security throughout the Nuclear Weapons Complex. We determined that neither
the planning for nor execution of the ESN project had been effective. Furthermore, the existing process
had created a system that failed to meet certain pre-established goals and objectives. Management
concurred with our recommendations to improve the program’s project management capabilities.
(DOE/IG-0823)




 8     OFFICE OF INSPECTOR GENERAL
                                            SEMIANNUAL
                                            REPORT TO CONGRESS




Accountable Classified Removable Electronic Media at ORNL

We conducted a review at ORNL and associated facilities to determine whether Accountable Classified
Removable Electronic Media (ACREM) was managed, protected, and controlled consistent with applicable
requirements. Our review disclosed that eight pieces of Secret/Restricted Data media had not been
identified as ACREM and placed into a system of accountability. Also, other required ACREM protections
and controls were not properly implemented. Management concurred with our recommendations designed
to enhance the security of ACREM, security areas, and computers. (INS-O-09-02)

Security Weaknesses and Inappropriate Downloads on Printers
at ORNL

We initiated an inspection to evaluate ORNL’s procedures for excessing printers with hard drive storage
capability after receiving an allegation that ORNL was excessing printers used to process sensitive,
unclassified information without purging or destroying their information storage devices. Department
policy requires that information storage devices in printers and copiers used to process such information
must be cleared, purged, or destroyed by approved overwriting software, degaussing, or physical destruction
before being excessed, returned to vendors, or internally transferred. Our review concluded that ORNL did
not have adequate procedures to prevent the unauthorized dissemination of sensitive, unclassified
information. In addition to clear prohibitions against such use, pornographic websites had been browsed
and downloaded to the printers. The property custodians for the examined printers told us it could not be
determined which employees used the printers to print the inappropriate material. In response to our
review, ORNL officials took significant actions to address these weaknesses. (INS-L-09-06)




 ENERGY SUPPLY


Energy Saving Opportunities

The Recovery Act emphasizes energy efficiency and conservation as critical to the Nation's economic
vitality; its goal of reducing dependence on foreign energy sources; and, related efforts to improve the
environment. Our audit found that the Department had not always taken advantage of opportunities to
reduce energy consumption associated with its information technology resources. Also, the Department
had not ensured that Information Technology (IT) resources were managed in a way that minimized impact
on the environment. Without improvements, the Department will not be able to take advantage of
opportunities to reduce energy consumption and realize cost savings. (OAS-RA-09-03)




                    Public reports are available in full text on our website at www.ig.energy.gov



                                                          APRIL 1, 2009 – SEPTEMBER 30, 2009           9
                                               SEMIANNUAL
                                               REPORT TO CONGRESS




Energy Savings Techniques Not Optimized at Departmental Facilities
Our audit determined that several Department facilities did not use or failed to properly maintain setback
systems and equipment – mechanical and software systems that decrease heating and cooling energy usage
during non-working hours. At the four sites visited during the audit, the Department did not ensure that
setback conservation methods were used for 35 of the 55 (approximately 64 percent) owned or leased
buildings that we evaluated. Our testing established that the Department could save over $11.5 million in
annual utility costs by using setbacks in its facilities. Management generally agreed with our findings and
committed to take necessary corrective actions. (DOE/IG-0817)


Revenue Sharing Agreement Not Formally Approved at the Great
Plains Synfuels Plant
We conducted an audit to determine if the Department received its share of revenue from operations at the
Great Plains Synfuels Plant. Our review of revenue sharing records from the period of 2002 through 2007
disclosed no material errors. We did, however, determine that the Office of Fossil Energy had not formally
approved and documented a proposal for deducting two new expense elements from revenue sharing
payments. (OAS-L-09-13)


Royalty Oil Program
In a prior audit report on the “Department of Energy's Receipt of Royalty Oil” (DOE/IG-0786,
January 2008), we concluded that the Department had not implemented an effective internal control
system over the receipt of Royalty oil at market centers. As a follow up, we initiated this audit to determine
whether controls in place over Royalty oil exchanges were sufficient to protect the Government's interest.
We found that the Department had not:
   ■   Established sufficient controls over the quality of pricing data used to evaluate competitive bids;
   ■   Evaluated the cost effectiveness of alternative strategies for the acquisition of oil for the Strategic
       Petroleum Reserve; and,
   ■   Incorporated specific provisions in exchange contracts to limit the Government's liability resulting
       from the quantity of oil delivered to the Strategic Petroleum Reserve.

To address these issues, we made suggestions to maximize the benefits of Royalty oil exchanges and reduce
the inherent risks of such exchanges. (OAS-L-09-07)




 10     OFFICE OF INSPECTOR GENERAL
                                             SEMIANNUAL
                                            REPORT TO CONGRESS




 ENVIRONMENTAL CLEANUP


Improvements Made to Fish Hatchery Projects

An audit was initiated to determine whether Bonneville had adequately managed fish hatchery projects.
We found that Bonneville had not ensured that scientific issues concerning project objectives and
performance measures were always addressed for four fish hatchery projects. As a result of our review,
Bonneville planned to (1) enhance its use of adaptive management to ensure that hatchery project
operations are based on sound scientific principles; (2) have clearly defined objectives and outcome-oriented
performance measures; (3) include management plans that deliver cost-effective mitigation of risks to fish
from Federal hydroelectric development; and, (4) introduce a new project management system to document
project decision histories and ensure that projects address major scientific concerns. (OAS-L-09-15)


Future Plans for Mixed Low-Level Waste Disposal

We conducted an audit to determine whether the Department had an effective strategy for disposing of
mixed low-level waste throughout the complex. Although a disposal strategy exists, we noted that the
Department had not determined the total volume of waste that will require disposal beyond 2010. To
address this concern, we suggested the Department update the Waste Information Management System
forecast for mixed low-level waste. We further suggested the completion of plans to construct a new waste
disposal facility at the Nevada Test Site. (OAS-L-09-17)




 SAFEGUARDS AND SECURITY


“Fair Opportunity” in Technology Transfer

The OIG received a letter from Congressman Mark Steven Kirk of Illinois forwarding an allegation that an
exclusive technology licensing agreement by Argonne National Laboratory (Argonne) was tainted by
inadequate competition, conflicts of interest, and other improprieties. The specific technology was
PROTECT - Program for Response Options and Technology Enhancements for Chemical/Biological
Terrorism. Our review confirmed that there were problems, among other things, with apparent conflicts of
interest. To help address these issues, we made several recommendations designed to help improve the
safeguards and practices associated with fairness of competition in the technology transfer.
(DOE/IG-0819)


             Public reports are available in full text on our website at www.ig.energy.gov



                                                           APRIL 1, 2009 – SEPTEMBER 30, 2009         11
                                            SEMIANNUAL
                                           REPORT TO CONGRESS




Personal Property Management Improvements Needed at Lawrence
Livermore National Laboratory

Our inspection revealed that Lawrence Livermore National Laboratory’s (Livermore) internal controls over
property could be improved. Specifically, we found that:
   ■   The location and/or custodian of approximately 18 percent of the property items in our sample was
       inaccurately reflected in the contractor’s property management database; and,
   ■   Some employees were not adequately protecting laptops while offsite and were not held accountable
       for the subsequent theft of the computers.

Management agreed with our recommendation to improve property accountability at Livermore.
(INS-O-09-03)




 STOCKPILE STEWARDSHIP


Quality Assurance Standards for Nuclear-Related Activities at
Savannah River

The objective of this audit was to determine whether the Department met quality assurance standards when
procuring structures, systems, and components (SSCs) for nuclear-related activities at Savannah River. We
found that SSCs procured and installed in three major nuclear facilities at Savannah River failed to meet
quality assurance standards because of inadequate controls to prevent and detect quality problems. These
findings have potential implications on the site’s management of Recovery Act stimulus funds used for
similar purposes. Accordingly, we made several recommendations designed to strengthen the quality
assurance process at Savannah River. (DOE/IG-0814)


Stockpile Surveillance Program Redesign

The Nuclear Weapons Stockpile Surveillance Program is critical to the Department’s mission and provides
information on the status of the Nation’s nuclear weapons stockpile. We conducted an audit to determine
whether previously reported stockpile surveillance testing backlogs continued and, if so, to what extent
pursuant to the FY 2009 National Defense Authorization Act. Our review revealed that NNSA made
fundamental changes to this program, including a redesigned testing approach, which resulted in the
elimination of all test backlogs. Because the program is relatively new and considering the complexity of
the testing program, we were unable to determine whether the change was appropriate. We suggested that
NNSA conduct a post-implementation review to validate the efficacy of the new testing approach.
(OAS-L-09-16)



 12     OFFICE OF INSPECTOR GENERAL
                                           SEMIANNUAL
                                           REPORT TO CONGRESS




                    Other Significant Reviews

Implementing the Department’s                         selected Department employees were reasonable
Cooperative Audit Strategy                            and accurate. Several items in our sampling
                                                      disclosed errors such as inaccurate retention
We periodically assess the reliability of the work    incentive pay; incorrect Federal Employee Group
performed by each Management and Operating            Life Insurance; and, three instances where official
(M & O) contractor’s internal audit function          personnel files lacked documentation authorizing
during our review of controls over costs reported     the employees’ withholdings. While no
on the Statement of Costs Incurred and Claimed.       recommendations were made, we referred these
We conducted two separate audits to provide an        errors to management officials who indicated that
assessment of the effectiveness in implementing       all errors have been or will be corrected and that
the requirements of the Cooperative Audit             procedures to review the official personnel files of
Strategy (Strategy) by M&O contractors managed        new and transferred employees would be
by: (1) the Department’s Office of Science,           strengthened. (OAS-L-09-12)
Environmental Management, and Energy
Efficiency and Renewable Energy; and, (2) NNSA.
We found that for the most part, the M&O              Reporting Performance
contractors effectively implemented the               Measures
requirements of the Strategy and met its overall
goal of improving accountability in the               We initiated an audit to determine if the
Department. However, various Departmental and         Department’s process for accumulating and
NNSA M&O contractors had not fully satisfied all      reporting performance data was accurate, complete
requirements set forth in the Strategy                and reliable. Our review disclosed that while the
implementation guidance. We suggested that the        Department had made a number of improvements
Contracting Officers take action to ensure that       and policy changes in its performance monitoring
contractors comply with all requirements of the       and reporting process, issues were revealed that
Strategy as part of the M&O contractor                necessitated correction. We suggested steps be
performance and evaluation process. (OAS-L-09-        taken to ensure the accuracy and consistency of
08, OAS-L-09-11)                                      performance information by reinforcing existing
                                                      requirements and improving coordination and
                                                      communication between appropriate program
Federal Payroll Processing                            officials. Improving performance monitoring and
Actions                                               reporting accuracy is an essential element in
                                                      meeting transparency goals of the Recovery Act.
We conducted an audit to determine whether base       (OAS-L-09-14)
salary and life insurance, health and retirement
benefits withholdings and contributions for

            Public reports are available in full text on our website at www.ig.energy.gov



                                                        APRIL 1, 2009 – SEPTEMBER 30, 2009           13
                                              SEMIANNUAL
                                             REPORT TO CONGRESS




Department’s Misstatement of                            and IN management was not aware of this
                                                        situation. We also found that IN did not have
Financial Support to Tribal
                                                        written procedures for processing FISA cases and
Colleges and Universities                               lacked an IN-wide process for tracking and
                                                        following up on FISA cases. We suggested that
We initiated an inspection to examine the facts         management develop procedures and implement
surrounding an allegation that the Department           protocols to improve the processing, tracking, and
overstated its financial support to Tribal Colleges     follow up of FISA cases. (INS-L-09-05)
and Universities (TCU) for FY 2007. While our
efforts substantiated that the Department’s TCU
financial support was grossly misstated, we found       Yucca Mountain’s Purchase
no evidence that the data was intentionally
falsified. As a result of our inspection, the data      Card Program
was corrected for FY 2007 and FY 2008, and
subsequent corrections were made to the                 Our inspection revealed that the operation of the
Department’s figures in its Minority Education          Yucca Mountain Project’s (Yucca Mountain)
Award Staging System and to reports for the             purchase card programs was not consistent with
Office of the White House Initiative on Tribal          applicable policies and procedures and contained
Colleges and Universities. We further suggested         weaknesses that could expose the Department to
that program officials follow up with the               the risk of fraud, waste, or abuse. Specifically, we
applicable program office(s) to ensure the data is      found that, contrary to requirements:
accurate in the future.                                     ■   A Yucca Mountain approving official did
(INS-L-09-04)                                                   not provide proper approval or review of
                                                                purchase transactions and did not always
                                                                review cardholders’ Statements of Account
Improvements Needed in the                                      and supporting documentation in a timely
Office of Intelligence and                                      manner;
Counterintelligence                                         ■   Another approving official who had been
                                                                approving cardholder transactions since
We initiated an inspection of the Office of                     2006 had not completed the required
Intelligence and Counterintelligence’s (IN) Foreign             certification training; and,
Intelligence Surveillance Act (FISA) support                ■   Two purchase cardholders had shared their
activities. We reviewed four cases IN identified as
                                                                account numbers and allowed others to
having been referred by the Federal Bureau of
                                                                make purchases using their numbers.
Investigation (FBI) for analysis of raw data
collected under FISA court orders, as well as
                                                        Management agreed with our recommendations to
applicable IN policies and procedures.
                                                        improve their purchase card program.
                                                        (INS-O-09-04)
While our inspection did not disclose any evidence
that IN processed casework in a manner that was
inconsistent with FISA, we did find however, that
one of the four FISA cases referred by the FBI for
analysis was not completed in a timely manner



 14    OFFICE OF INSPECTOR GENERAL
                                             SEMIANNUAL
                                             REPORT TO CONGRESS




Workers’ Compensation Made                              Livermore’s protective force may have also
                                                        exceeded its authority when querying DMV
at Hanford Site
                                                        database records during vehicle stops.
                                                        Departmental and Livermore management issued
We initiated an inspection to review allegations of
                                                        memoranda ceasing these practices.
overpayment, unauthorized settlements, and
                                                        (DOE/IG-0820)
incorrect timecard coding for workers’
compensation. We substantiated that employees
were receiving workers’ compensation payments
                                                        Fire Suppression Services at
over 100 percent of employees’ net salaries and
that employees were compensated beyond the              Los Alamos
180 days allowed under the site labor agreement.
We suggested that management review and ensure          The OIG received information that problems
compliance with labor agreements. We further            existed with regard to fire suppression and related
suggested that management continue to protect           services at Los Alamos. Our inspection
Department interests by closely evaluating the cost     determined that firefighters had not been properly
allowability of any proposed non-workers’               trained nor did they have the knowledge to
compensation settlements submitted to                   confidently and effectively respond to emergencies
Department for cost reimbursement.                      in the unique operational environments they may
(INS-L-09-07)                                           encounter at Los Alamos; and, facility
                                                        management had not addressed long-standing
                                                        recommendations made in the 1995 and
Protective Force Authority                              2004 Los Alamos Baseline Needs Assessments.
                                                        To fully correct the conditions identified during
at Livermore                                            this review, we recommended the NNSA
                                                        Administrator take immediate action to address
The OIG received an allegation that the Livermore       these problems. (DOE/IG-0821)
protective force was acting outside its established
authority by assisting local law enforcement in
instances unrelated to official duties. Also alleged
was that the protective force violated employees’
privacy rights by accessing the California
Department of Motor Vehicles (DMV) database
when conducting vehicle traffic stops. Generally,
Federal regulations and Department policy limit
protective force officials’ arrest authority to the
performance of official duties related to
Department property. Our review determined
that the practice of assisting a local law
enforcement agency at offsite locations was
inconsistent with Department policy. Further,



             Public reports are available in full text on our website at www.ig.energy.gov



                                                          APRIL 1, 2009 – SEPTEMBER 30, 2009         15
                                             SEMIANNUAL
                                             REPORT TO CONGRESS




Improvements Needed for the                             recommended the Office of Science direct the site
                                                        offices to:
Completion and Dissemination
of Research and Development                                ■   Establish performance measures to assess the
                                                               laboratories’ performance in obtaining final
Reports
                                                               CRADA reports and transmitting the report
                                                               to OSTI;
We initiated this audit to determine whether the
Office of Science managed the Cooperative                  ■   Verify that the laboratories establish policies
Research and Development process. We found                     to require researchers to transmit final
that the Office of Science generally managed the               CRADA reports for all completed or
use of Cooperative Research and Development                    terminated CRADAs; and,
Agreements (CRADA) activities in accordance                ■   Review periodically whether the laboratories
with Department requirements. However, it had
                                                               are receiving and promptly transmitting
not always taken steps to ensure that the
                                                               final CRADA reports to OSTI.
laboratories obtained final reports and forwarded
                                                               (DOE/IG-0826)
these reports to the Office Scientific and Technical
Information (OSTI). To improve this process, we




 16    OFFICE OF INSPECTOR GENERAL
                                             SEMIANNUAL
                                             REPORT TO CONGRESS




                     Investigative Outcomes

Recovery Act Fraud                                      Washington Savannah River
Awareness Briefings                                     Company Agrees to Reimburse
                                                        Department $2.4 Million for
The OIG provided fraud awareness briefings to
                                                        Unallowable Costs
groups of Federal employees, contractor officials,
and fund recipients. These briefings aid
                                                        As previously reported, an investigation
significantly in preventing fraud, waste, and abuse
                                                        determined that a contractor withheld pension
by heightening awareness of fraud indicators and
                                                        contribution information from the Department
familiarizing officials with our operations and
                                                        during negotiations for the M &O contract at
oversight of Recovery Act funds. Since the
                                                        Savannah River. Failure to disclose this
inception of the Recovery Act, our office
                                                        information had a net effect of making additional
conducted 84 fraud awareness briefings hosting
                                                        monies available for the firm’s award fee pool. The
over 8,000 participants.
                                                        contractor agreed to pay in excess of $2.4 million
                                                        to resolve allegations of fraud. The settlement also
                                                        required the contractor to abandon a claim for fee
                                                        payment of $35.6 million from the Department
                                                        making the total value of the settlement to the
                                                        Government in excess of $38 million. During this
                                                        reporting period, the contractor agreed to
                                                        reimburse the Department in excess of $61,000 in
                                                        unallowable costs incurred by in-house corporate
                                                        counsel and company employees relating to the
                                                        investigation.


                                                        Contractor Enters into a Million
                                                        Dollar Civil Settlement After
                                                        Allegations of Fraud

                                                        An OIG investigation determined that a former
                                                        Department security subcontractor at the Strategic
                                                        Petroleum Reserve switched to a self insurance
                                                        health insurance program and billed the
                                                        Department for health insurance premiums that
                                                        exceeded allowable self insurance health insurance
An OIG Fraud Awareness Briefing.                        premiums. The subcontractor agreed to pay




                                                          APRIL 1, 2009 – SEPTEMBER 30, 2009         17
                                             SEMIANNUAL
                                             REPORT TO CONGRESS




$1 million to resolve allegations of fraud. During      11 counts of Forged or Altered Public Records,
a previous reporting period, the contractor             1 count of Theft of Public Money, and 1 count of
disallowed payment to the subcontractor which           Wire Fraud. Sentencing is pending.
resulted in a $3.9 million monetary recovery to
the Department.
                                                        Former Sandia National
                                                        Laboratory Employee Sentenced
Grantee Employees and
                                                        for Theft of Government
Associated Subcontractor
                                                        Property
Personnel Sentenced for
Submitting False Claims                                 A joint investigation with the FBI determined that
                                                        a Sandia National Laboratory (Sandia) employee
As previously reported, a joint investigation with      misused his position to obtain various electronic
the FBI determined that a subcontractor official,       items including laptop computers, which were
along with other co-conspirators, used the U.S.         subsequently sold for personal gain. The employee
Postal Service to submit invoices and obtain            pled guilty to two counts of Theft of Government
payments from a Federal Energy Regulatory               Property and two counts of False Claims and was
Commission grantee for work not performed.              sentenced to one year incarceration and two years
During this reporting period, two grantee               supervised probation. The person was also ordered
employees were sentenced to 12 to 24 months in          to pay $113,490 in restitution.
prison and 2 years supervised probation, and were
ordered to make restitution in excess of $5 million.
Two associated subcontractor personnel were also        Former Department Employee
sentenced to 2 years probation, 200 hours of
                                                        Sentenced for Theft of
community service, and fined $10,000 and
$50,000. Another subcontractor employee was             Government Property
debarred, along with his wife and two associated
companies.                                              As previously reported, an investigation
                                                        determined that a former Headquarters
                                                        administrative support specialist claimed and was
Former Subcontractor Employee                           paid for 2,415 overtime hours for work not
                                                        performed. The employee, who received
Convicted for Submitting False                          approximately $94,494 in compensation over a
Claims                                                  three-year period for which the employee was not
                                                        entitled and pled guilty to one count of Theft of
A joint investigation with the FBI determined that      Government Property. During this reporting
a former subcontractor employee at the                  period, the former employee was sentenced to
Department’s Pantex facility submitted false travel     36 months probation (including 180 days of
and time and attendance claims on behalf of             home confinement with electronic monitoring)
company employees and himself from October              and was ordered to pay restitution in the amount
2007 to June 2008. The estimated dollar loss to         of $94,494.
the Government was $170,000. The employee
was convicted on 16 counts of False Claims,



 18    OFFICE OF INSPECTOR GENERAL
                                            SEMIANNUAL
                                            REPORT TO CONGRESS




Individual Pleads Guilty to                            performance. The manager was placed on
                                                       administrative leave during the course of the
Charges of Damage/Destruction
                                                       investigation and subsequently resigned. The
of an Energy Facility                                  manager later pled guilty to one felony count of
                                                       False Statements. During this reporting period,
An OIG investigation with South Dakota law             the former manager was sentenced to 3 years
enforcement officials determined that a private        probation, including 6 months of electronic
citizen, with no affiliation to the Department,        monitoring, and 600 hours of community service.
vandalized the Department’s Western Area Power
Administration Mission substation in South
Dakota. The individual’s actions resulted in           Employment of Laboratory
approximately $53,000 in losses and damages.
The individual pled guilty to “Damage/                 Staff Scientist Terminated in
Destruction of an Energy Facility” and was             Connection with Conflict of
sentenced to 16 months incarceration, 3 years          Interest Investigation
supervised release, and ordered to participate in
the Bureau of Prison’s substance abuse treatment       An OIG investigation determined that a scientist
program and pay $40,000 in restitution.                at the Department’s Lawrence Berkeley National
                                                       Laboratory (Berkeley) failed to obtain proper
                                                       authorization prior to engaging in outside
Former Government Employee                             employment relating to the individual’s laboratory
Sentenced for Theft of Public                          work. Berkeley terminated the individual’s
                                                       employment. The former employee was also
Money
                                                       required to reimburse Berkeley $4,650.
An OIG investigation determined that a
Department administrative support specialist gave
family members a total of 10 Government cellular       Former Contractor Employee
telephones for their personal use. The individual      Pleads Guilty to Theft
pled guilty to one count of Theft of Public Monies
and resigned. She was sentenced to 5 years             An investigation determined that an ORNL
probation, 400 hours of community service and          employee fraudulently used a contractor-issued
was ordered to pay $19,051 in restitution.             purchase card to buy personal items including
                                                       groceries, gasoline, and miscellaneous household
                                                       items. As a result, the individual’s employment
Former Department Manager                              was terminated, and she subsequently pled guilty
                                                       to state Theft charges and was sentenced to 4 years
Sentenced for Theft of
                                                       probation and 20 hours of community service, and
Government Funds                                       ordered to pay $4,257 in restitution. The
                                                       individual was also debarred from Federal
As previously reported, an OIG investigation           contracting.
determined that a Headquarters manager
improperly initiated, approved, and received a
$7,500 individual cash award for personal work



                                                         APRIL 1, 2009 – SEPTEMBER 30, 2009        19
                                              SEMIANNUAL
                                              REPORT TO CONGRESS




Former Subcontractor                                     that a former contractor employee at Los Alamos
                                                         stole Government-owned computer monitors for
Employees Sentenced for Theft
                                                         personal gain. The employee resigned and later
of Government Property                                   pled guilty to one count of Theft of Government
                                                         Property. The individual was sentenced to one
A joint investigation with the Oak Ridge,                year supervised probation and was ordered to pay
Tennessee, Police Department determined that             $1,026.86 in restitution. The monitors were
two former subcontractor employees at the                recovered during the investigation and returned to
Department’s Y-12 National Nuclear Security              Los Alamos.
Complex (Y-12) attempted to steal assorted
Government tools for their personal use. Both
individuals pled guilty to Tennessee State Theft         Former Contractor Employee
charges and received sentences ranging from
one to two years supervised probation and were           Sentenced for Obscene Acts
fined a combined total of $2,080. Both employees
were also debarred from Government contracting           A joint investigation with California state law
for a three-year period.                                 enforcement officials determined that a former
                                                         contractor employee at Livermore possessed
                                                         approximately 3,000 images depicting child
                                                         pornography. The employee pled no contest to
Former Subcontractor Employee
                                                         California State charges of Developing,
Sentenced for Theft of                                   Duplicating, Printing, or Exchanging Obscene
Laboratory Equipment                                     Matter Depicting Sexual Conduct of Persons
                                                         Under Age 18. The employee was sentenced to
An investigation determined that a former                60 days incarceration, 5 years probation, and
subcontractor employee at Argonne attempted to           ordered to pay $350 in fines and restitution.
sell stolen laboratory high-energy physics electronic    Additionally, the employee was registered as a Sex
equipment to a private company specializing in the       Offender and his employment was terminated.
resale of used electronics equipment. The
employee previously pled guilty to one felony
count of Theft of Government Property. During            Former Y-12 Security Police
this reporting period, the employee was sentenced        Officer Agrees to Pretrial
to 180 days incarceration and 24 months
probation, and ordered to pay $1,334 in fines and
                                                         Diversion in Theft Case
restitution. The individual was also debarred for a
three-year period.                                       A joint investigation with the FBI, U.S. Drug
                                                         Enforcement Administration (DEA), and the
                                                         Smith County Sherriff ’s Department determined
Former Contractor Employee                               that a former security police officer stole multiple
                                                         items from the Y-12 complex. The employee
Sentenced for Theft of                                   agreed in the General Sessions Court of Smith
Government Property                                      County, Tennessee, to a pretrial diversion for
                                                         Theft, Possession of Schedule II Controlled
A joint investigation with the New Mexico Rio            Substances (steroids), Drug Paraphernalia, and
Arriba County Sheriffs Department determined             Disorderly Conduct and was ordered to pay court


  20    OFFICE OF INSPECTOR GENERAL
                                             SEMIANNUAL
                                             REPORT TO CONGRESS




costs. The Department’s prime contractor at Y-12        Prior Convicted Felons
previously terminated the security officer’s
                                                        Sentenced for Possessing
employment, and that of two other officers, for
testing positive for anabolic steroids.                 Weapons at a NNSA Facility

                                                        A joint OIG investigation with the FBI and DEA
Former Subcontractor Employee                           determined that two individuals trespassed onto
                                                        the Y-12 complex. At the time, the individuals,
Sentenced for Theft of                                  both prior convicted felons with no affiliation to
Government Property                                     the Department, were found to have a loaded
                                                        firearm and methamphetamine equipment in their
An investigation determined that a former               vehicle. Both individuals pled guilty to Federal
subcontractor employee at the Department’s Fermi        charges for possession of a firearm and
National Accelerator Laboratory stole 259 pounds        ammunition. One of the individuals was
of copper wire for sale to a local scrap yard. The      sentenced to 48 months in prison and 3 years
individual subsequently resigned in lieu of             supervised probation, and fined $100. The
termination. Later, the individual pled guilty to       second individual’s sentencing is pending.
state Theft charges and was sentenced to 1 year
court supervision and 30 hours of community
service, and was ordered to pay a $235 fine.            Department Management
                                                        Responds to an Investigative
Contractor Employee Also a                              Report to Management
Deputy Sheriff Misused Status                           Concerning Alleged Conflict
While Travelling with Firearm                           of Interest
on DOE Business                                         An OIG investigation determined that a
                                                        Department Headquarters manager and a
A joint investigation with the U.S. Department          subordinate employee co-owned or co-operated
of Homeland Security OIG determined that a              four private land development and real estate
contractor employee at Savannah River misused           businesses while maintaining a
his status as a Reserve Deputy Sherriff to fly armed    supervisor/subordinate relationship at work. In
on at least 26 commercial airline flights while on      response to an OIG investigative report,
Department and Work-for-Others assignments.             Department management advised that as outlined
In response to an OIG investigative report,             in the Standards of Ethical Conduct for Federal
corporate management notified the employee in           Employees, the manager and employee should
writing of company policy relating to carrying a        have requested written approval from their
firearm on Government travel. A record of the           immediate supervisor(s) and the Department’s
incident was also placed in the employee’s              Office of General Counsel before engaging in
personnel security file.                                outside employment. The Department manager,
                                                        who was assigned to a non-supervisory position,
                                                        later retired.




                                                          APRIL 1, 2009 – SEPTEMBER 30, 2009        21
                                            SEMIANNUAL
                                            REPORT TO CONGRESS




NNSA Employee Reprimanded                              Government Employee’s
for Misuse of Official Position                        Relative Convicted of
                                                       Unlawfully Obtaining Excess
An OIG investigation determined that a
                                                       Government Property
Headquarters emergency response specialist used
his official position to solicit information from
                                                       An investigation determined that an employee of
another Government agency concerning his son’s
                                                       the Federal Aviation Administration (FAA)
arrest. In response to an OIG Investigative Report
                                                       misused a Government computer system to
to Management, the specialist received a letter of
                                                       improperly obtain surplus items from other federal
reprimand. Subsequently, all NNSA Office of
                                                       agencies for the employee’s and a family member’s
Emergency Operations personnel were reminded
                                                       personal use. The surplus items included a
of the conduct provisions pertaining to “Misuse of
                                                       backhoe from Los Alamos and other items from
Position.”
                                                       Sandia laboratories and Western Area Power
                                                       Administration. During this reporting period, the
                                                       family member was convicted of Mail and Wire
Former Contractor Employee                             Fraud, Theft, and Unlawful Monetary
Pleads Guilty in Disability Fraud                      Transactions. Judicial proceedings against the FAA
Investigation                                          employee are pending. This effort was a joint
                                                       investigation with the General Services
A joint investigation with the Social Security         Administration’s OIG and other federal law
Administration OIG determined that a former            enforcement agencies.
contractor employee at Savannah River knowingly
accepted funds to which he was not entitled by
violating the terms of his disability insurance
programs. The former employee was found to
have owned and operated his own business,
worked for a construction company, and traveled
to Iraq as a heavy machinery operator while
receiving disability benefits. The individual pled
guilty in U.S. District Court for the District of
South Carolina to one count of Theft of
Government Funds. Sentencing is pending.




 22    OFFICE OF INSPECTOR GENERAL
                                            SEMIANNUAL
                                            REPORT TO CONGRESS




                     Positive Results

Highlights Based on Office of                                 examination of excess printers and copiers
                                                              to identify hard drives for proper
Inspector General Work
                                                              disposition. (INS-L-09-06)
During this report period, the Department took            ■   The Department took positive steps to
positive actions as a result of OIG work conducted
                                                              ensure that Secret/Restricted Data was
during the current or previous periods. Consistent
                                                              controlled and accounted for and could not
with our findings and recommendations:
                                                              be reproduced or copied without required
                                                              authorizations. (INS-O-09-02)
   ■   Several sites including the National Energy
       Technology Laboratory, ORNL, Y-12,                 ■   Los Alamos initiated a series of corrective
       Sandia, and the NNSA Service Center have
                                                              actions to ensure that fire protection
       initiated action to implement power
                                                              deficiencies were properly addressed. In
       management settings in an effort to
                                                              addition, the Department initiated
       conserve energy used by information
                                                              corrective actions to verify the efficacy of
       technology resources. (OAS-RA-09-03)
                                                              the closure of significant fire protection
                                                              deficiencies. Finally, the Department and
   ■   On October 2, 2009, in response to our                 Los Alamos are developing metrics to
       audit report, the Under Secretary of Energy            actively monitor the effectiveness of Los
       issued a memorandum to Departmental                    Alamos' corrective action management
       heads emphasizing the importance of energy             system to ensure that issues are tracked and
       conservation within the Department.                    closed on a timely basis and that significant
       (DOE/IG-0817)                                          corrective actions are validated effective.
                                                              (DOE/IG-0816)
   ■   As a result of our ESPC audit, the
       Department initiated corrective actions to         ■   NNSA entered into a Cooperative
       address contract management, measurement               Agreement with the County of Los Alamos
       and verification, and risks associated with            for the provision of fire suppression and
       energy cost fluctuations. (DOE/IG-0822)                related services at Los Alamos National
                                                              Laboratory after years of unsuccessful
   ■   The ORNL improved security by disabling                attempts to negotiate a contract. The
       document servers for 160 copiers with hard             Cooperative Agreement requires the
       drives, modifying copier lease agreements to           County, NNSA, and Los Alamos to
       require the removal of hard drives before              collaboratively develop exercises, drills, and
       excessing the copiers, and identifying                 site specific training commensurate with the
       218 hard drives to be removed from leased              various hazards at Los Alamos, with
       copiers and purged or destroyed. Also, local           particular emphasis on nuclear and
       procedures were updated to incorporate the             industrial hazards. The Cooperative



                                                         APRIL 1, 2009 – SEPTEMBER 30, 2009          23
                                                SEMIANNUAL
                                                REPORT TO CONGRESS




       Agreement also requires that the County             Management Referral System
       participate in these exercises, drills, and site
       specific training. Since February 2009, the         The OIG referred 129 complaints to Department
       Cooperative Agreement has prompted                  management and other Government agencies
       actual and planned initiatives to secure the        during this reporting period and specifically
       appropriate level of fire suppression services      requested Department management to respond
       for Los Alamos, reducing the risk to its            concerning the actions taken on 59 of these
       facilities, personnel, and operations.              complaints. Otherwise, Department management
       (DOE/IG-0821)                                       was asked to respond only if it developed
                                                           information or took action that it believed should
   ■   The NNSA agreed to review protective force          be reported. The following referral demonstrates
       law enforcement authorities at all NNSA             management’s use of OIG-provided information to
       sites to ensure that they are in compliance         stimulate positive change or to take decisive
       with the Code of Federal Regulations.               action:
       NNSA also agreed to ensure that access to
       law enforcement databases by protective                ■   A complaint raised allegations of unhealthy
       force officers is in accordance with official              working conditions due to heat exposure in
       policy. (DOE/IG-0820)                                      a contractor-operated facility. In response
                                                                  to the complaint, the program office
                                                                  physically inspected the facility and
Congressional Responses                                           identified serious issues with the
                                                                  implementation of the contractor’s heat
During this reporting period, the OIG provided                    stress prevention program. Based on this
information at the request of Congress in                         information, the program office
24 instances and briefed congressional staff on                   communicated the issues to the contractor
3 occasions.                                                      and identified immediate and long-term
                                                                  corrective actions to ameliorate the working
                                                                  conditions.
Hotline System

The OIG operates a Hotline System to facilitate            Qui Tams
the reporting of allegations involving the programs
and activities under the auspices of the                   Since 1996, the OIG has been instrumental in
Department. During this reporting period, the              working with the Department of Justice in Qui
Hotline received 2,264 contacts, of which 888              Tam cases. The OIG is currently working on 16
were processed as complaints. The OIG Hotline              Qui Tam lawsuits involving alleged fraud against
System can be reached by calling 1-800-541-1625            the Government in the amount of approximately
or 1-202-586-4073.                                         $295,625,000. These cases are highly resource
                                                           intensive, requiring the active participation of OIG
                                                           investigative and audit assets. However, they have
                                                           proven to result in a high return on our
                                                           investment of resources.




 24     OFFICE OF INSPECTOR GENERAL
                                            SEMIANNUAL
                                            REPORT TO CONGRESS




Legislative and Regulatory
Reviews

The Inspector General Act of 1978, as amended,
requires the OIG to review and comment upon
legislation and regulations relating to Department
programs and to make recommendations
concerning the impact of such legislation or
regulations on departmental economy and
efficiency. The OIG coordinated and reviewed
53 items during the reporting period.




                                                         APRIL 1, 2009 – SEPTEMBER 30, 2009   25
                                   SEMIANNUAL
                                   REPORT TO CONGRESS




                           This page intentionally left blank.




26   OFFICE OF INSPECTOR GENERAL
                                           SEMIANNUAL
                                           REPORT TO CONGRESS




                 Appendix 1 - Reports


                     Recovery Act Reports Issued
                         April 1, 2009 – September 30, 2009

Report                                                            Date                    Questioned
Number                             Title                         Issued       Savings       Costs

OAS-RA-09-03   Department of Energy Efforts to Manage            05-27-09    $9,400,000
               Information Technology Resources in an
               Energy-Efficient and Environmentally
               Responsible Manner

OAS-RA-09-04   Department of Energy’s Efforts to Meet            09-04-09
               Accountability and Performance Reporting
               Objectives of the American Recovery and
               Reinvestment Act




                             Audit Reports Issued
                         April 1, 2009 – September 30, 2009

Report                                                            Date                    Questioned
Number                             Title                         Issued       Savings       Costs

IG-0814        The Procurement of Safety Class/Safety-           04-23-09                 $30,796,112
               Significant Items at the Savannah River Site

IG-0815        The Office of Secure Transportation DC-9          05-06-09    $1,000,000
               Aircraft Refurbishment

IG-0816        Fire Protection Deficiencies at Los Alamos        06-23-09
               National Laboratory

IG-0817        The Department of Energy’s Opportunity for        07-20-09   $11,500,000
               Energy Savings Through the Use of Setbacks
               in its Facilities

IG-0818        Protection of the Department of Energy’s          08-04-09
               Unclassified Sensitive Electronic Information




                                                            APRIL 1, 2009 – SEPTEMBER 30, 2009   27
                                           SEMIANNUAL
                                           REPORT TO CONGRESS




                            Audit Reports Issued
                        April 1, 2009 – September 30, 2009

Report                                                           Date                    Questioned
Number                             Title                        Issued       Savings       Costs

IG-0819       Allegations of Conflict of Interest Regarding     08-05-09
              Licensing of PROTECT by Argonne National
              Laboratory

IG-0822       Management of Energy Savings                      09-10-09    $7,130,000   $9,870,000
              Performance Contract Delivery Orders at
              the Department of Energy

IG-0823       The Management of the National Nuclear            09-16-09
              Security Administration’s Classified Enterprise
              Secure Network Project

IG-0824       Bonneville Power Administration’s                 09-29-09   $11,000,000
              Acquisition of Transmission-Related Materials
              and Equipment

IG-0825       The Department of Energy’s Management             09-30-09                 $1,764,650
              of Contractor Fines, Penalties and
              Legal Costs

IG-0826       Cooperative Research and Development              09-30-09
              Agreements at the Department of Energy’s
              Office of Science Laboratories

OAS-M-09-02   Management Controls over the Use of               04-29-09
              Service Contracts at the Office of
              River Protection

OAS-L-09-07   Controls over Royalty Oil Exchanges               04-30-09

OAS-L-09-08   Effectiveness in Implementing the                 06-30-09
              Cooperative Audit Strategy

OAS-L-09-09   Closure of Subcontracts at the Savannah           06-24-09                 $6,700,000
              River Site

OAS-L-09-10   Closure of Subcontracts at the Oak Ridge          06-24-09                 $3,900,000
              National Laboratory and East Tennessee
              Technology Park

OAS-L-09-11   Implementation of the Cooperative Audit           07-23-09
              Strategy by National Nuclear Security
              Administration Managed Contractors




28   OFFICE OF INSPECTOR GENERAL
                                          SEMIANNUAL
                                          REPORT TO CONGRESS




                            Audit Reports Issued
                        April 1, 2009 – September 30, 2009

Report                                                          Date                Questioned
Number                            Title                        Issued     Savings     Costs

OAS-L-09-12   Agreed-Upon Procedures for Federal Payroll       07-23-09

OAS-L-09-13   Revenue Sharing at the Great Plains              07-24-09
              Synfuels Plant

OAS-L-09-14   Controls over the U.S. Department of             07-24-09
              Energy’s Performance Measures

OAS-L-09-15   Bonneville Power Administration Fish             07-24-09
              Hatchery Projects

OAS-L-09-16   Follow-Up Audit of the Stockpile                 08-20-09
              Surveillance Program

OAS-L-09-17   Mixed Low-Level Waste Disposal within the        09-28-09
              Department of Energy

OAS-V-09-08   Assessment of Changes to the Internal            04-23-09
              Control Structure and Their Impact on the
              Allowability of Costs Claimed by Battelle
              Energy Alliance, LLC During Fiscal Year 2007

OAS-V-09-09   Assessment of Changes to the Internal            07-02-09
              Control Structure and Their Impact on the
              Allowability of Costs Claimed by UT-Battelle,
              LLC During Fiscal Year 2007

OAS-V-09-10   Assessment of Changes to the Internal            08-24-09               $271,011
              Control Structure and Their Impact on the
              Allowability of Costs Claimed by and
              Reimbursed to Los Alamos National
              Laboratory Under Department of Energy
              Contract No. DE-AC52-06NA25396 from
              June 1, 2006 to September 30, 2007

OAS-V-09-11   Audit Coverage of Cost Allowability for          08-31-09
              Bechtel Bettis Inc. Under Department of
              Energy Contract No. DE-AC11-98PN38206
              During Fiscal Years 2005, 2006, 2007,
              2008, and the Four Month Period
              October 1, 2008 through February 1, 2009




                                                        APRIL 1, 2009 – SEPTEMBER 30, 2009   29
                                           SEMIANNUAL
                                           REPORT TO CONGRESS




                             Audit Reports Issued
                        April 1, 2009 – September 30, 2009

Report                                                           Date                Questioned
Number                             Title                        Issued     Savings     Costs

OAS-V-09-12    Audit Coverage of Cost Allowability for          08-31-09
               KAPL, Inc. Under Department of Energy
               Contract No. DE-AC12-00SN39357 During
               Fiscal Years 2005, 2006, 2007, 2008,
               and the Four Month Period October 1, 2008
               through February 1, 2009

OAS-FC-09-01   Audit of National Security Technologies, LLC     05-18-09               $84,566
               Costs Claimed Under Department of Energy
               Contract No. DE-AC52-06NA25946 for
               Fiscal Year 2007

OAS-FS-09-05   The Fiscal Year 2006 Balance Sheet for           04-22-09
               the Isotope Programs

OAS-FS-09-06   Uranium Enrichment Decontamination and           08-26-09
               Decommissioning Fund’s Fiscal Year 2005
               and 2006 Financial Statement Audit




30   OFFICE OF INSPECTOR GENERAL
                                                     SEMIANNUAL
                                                     REPORT TO CONGRESS




                                       Inspection Reports Issued*
                                       April 1, 2009 – September 30, 2009

  Report Number                                                Title                                   Date Issued

  DOE/IG-0820                Lawrence Livermore National Laboratory Protective Force Authority           09-04-09

  DOE/IG-0821                Fire Suppression and Related Services at Los Alamos                         09-11-09
                             National Laboratory

  INS-L-09-04                Department of Energy Funding of Tribal Colleges and Universities            04-07-09

  INS-L-09-05                Selected Aspects of the Department of Energy’s Activities Involving the     05-06-09
                             Foreign Intelligence Surveillance Act

  INS-L-09-06                Security Weaknesses in the Handling of Unclassified Printers and            05-22-09
                             Copiers at the Oak Ridge National Laboratory

  INS-L-09-07                Allegations of Improper Hanford Workers’ Compensation Payments              08-27-09

  INS-O-09-02                Internal Controls over Accountable Classified Removable Electronic          05-04-09
                             Media at Oak Ridge National Laboratory

  INS-O-09-03                Personal Property Management at Lawrence Livermore                          05-28-09
                             National Laboratory

  INS-O-09-04                Yucca Mountain Project Purchase Card Programs                               08-20-09
*Does not include non-public reports




                                                                       APRIL 1, 2009 – SEPTEMBER 30, 2009     31
                                                              SEMIANNUAL
                                                             REPORT TO CONGRESS




                               Appendix 2 - Tables


     OIG Issued Audit Reports with Recommendations
                 for Better Use of Funds
                                        April 1, 2009 – September 30, 2009
                                                (Dollars in Thousands)
     The following table shows the total number of audit reports and the total dollar value of the recommendations that
                                          funds be put to better use by management:

                                                                 Total            One Time                  Recurring        Total
                                                                Number             Savings                   Savings        Savings

  A. Those issued before the reporting period                         4         $1,015,201,762                 $0       $1,015,201,762
     for which no management decision has
     been made:*

  B. Those issued during the reporting period:                      27             $49,900,000**               $0         $49,900,000**

           Subtotals (A + B)                                        31          $1,065,101,762                 $0       $1,065,101,762

  C. Those for which a management decision
     was made during the reporting period:*                         13             $51,405,317                 $0         $51,405,317

        (i) Agreed to by management:                                                 $4,085,980                $0          $4,085,980

        (ii) Not agreed by management:                                             $13,119,337                 $0         $13,119,337

  D. Those for which a management decision                          12                            $0           $0                  $0
     is not required:

  E. Those for which no management decision                           6         $1,047,896,445                 $0       $1,047,896,445
      has been made at the end of the
      reporting period:*

  Definition of Terms Used in the Table
  Funds put to better use: Funds that could be used more efficiently by implementing recommended actions.
  Unsupported costs: A cost that is not supported by adequate documentation. Questioned costs include
  unsupported costs.
  Management decision: Management’s evaluation of the finding and recommendations included in the audit
  report and the issuance of a final decision by management concerning its response.
 * The figures for dollar items include sums for which management decisions on the savings were deferred.
** Includes Questioned Costs from one report totalling $9,870,000.




  32      OFFICE OF INSPECTOR GENERAL
                                                              SEMIANNUAL
                                                             REPORT TO CONGRESS




       OIG Issued Audit Reports with Questioned Costs
                                        April 1, 2009 – September 30, 2009
                                                (Dollars in Thousands)
              The following table shows the total number of audit reports and the total dollar value of questioned
                                                    and unsupported costs.

                                                                         Total               Questioned        Unsupported
                                                                        Number                 Costs              Costs

  A. Those issued before the reporting period for                             1              $41,922,457        $873,650
     which no management decision has
     been made:*

  B. Those issued during the reporting period:                                6              $43,509,539**        $6,800

          Subtotals (A + B)                                                   7               $85,431,996        $880,450

  C. Those for which a management decision was                                5              $37,083,332        $757,450
     made during the reporting period:*

       (i) Value of disallowed costs:                                                              $47,286       $16,308

       (ii) Value of costs not disallowed:                                                           $6,744     $741,142

  D. Those for which a management decision is                                 2              $10,600,000      $10,600,000
     not required:

  E. Those for which no management decision                                   0              $85,377,966        $123,000
     has been made at the end of the
     reporting period:*

  Definition of Terms Used in the Table
  Questioned costs: A cost that is (1) unnecessary; (2) unreasonable; (3) unsupported; (4) or an alleged
  violation of law, regulation, contract, etc.
  Unsupported costs: A cost that is not supported by adequate documentation. Questioned costs include
  unsupported costs.
  Management decision: Management’s evaluation of the finding and recommendations included in the audit
  report and the issuance of a final decision by management concerning its response.

 * The figures for dollar items include sums for which management decisions on the savings were deferred.
** Excludes Questioned Costs totalling $9,870,000.




                                                                                  APRIL 1, 2009 – SEPTEMBER 30, 2009        33
                                           SEMIANNUAL
                                           REPORT TO CONGRESS




Reports Lacking                                       Prior Significant
Management Decision                                   Recommendations
                                                      Not Implemented
The Department has a system in place to track
audit reports and management decisions. Its           As of September 2009, closure actions on
purpose is to ensure that recommendations and         recommendations in 31 OIG reports had not
corrective actions indicated by audit agencies and    been fully implemented within 12 months from
agreed to by management are addressed as              the date of report issuance. The OIG is
efficiently and expeditiously as possible. Listed     committed to working with management to
below is an audit report over six months old that     expeditiously address the management decision
were issued before the beginning of the reporting     and corrective action process, recognizing that
period and for which no management decision had       certain initiatives will require long-term, sustained,
been made by the end of the reporting period.         and concerted efforts. The Department has closed
The reason a management decision had not been         125 recommendations in the past 6 months.
made and the estimated date for achieving             Management updates the Departmental Audit
management decision is described below.               Report Tracking System on a quarterly basis, most
                                                      recently in September 2009. Information on the
                                                      status of any report recommendation can be
   Management Audit                                   obtained through the OIG’s Office of Audit
                                                      Services and Office of Inspections.
   IG-0753: Recovery Costs for the Proprietary Use
   of the Advanced Photon Source, January 11,
   2007 – The Office of the Chief Financial
   Officer is working with the Department to
   address a complex accounting issue raised by
   the report. A final management decision is
   expected before March 30, 2010.




 34    OFFICE OF INSPECTOR GENERAL
                                                              SEMIANNUAL
                                                              REPORT TO CONGRESS




                             Summary of Inspection Activities
                                        April 1, 2009 – September 30, 2009

  Inspections/Special Inquiries open as of April 1, 2009                                                                          34
  Inspections/Special Inquiries opened during this reporting period                                                               11
  Inspections/Special Inquiries closed during this reporting period                                                               16
  Inspections open as of September 30, 2009                                                                                       29
  Reports issued (includes non-public reports)                                                                                     9
  Report Recommendations:
      Issued this reporting period                                                                                                25
      Accepted by management this reporting period                                                                                25
      Implemented by management this reporting period                                                                             25
  Funds recovered                                                                                                                 $0
  Complaints Referred to Department management/others                                                                            129
      Referred to Department management requesting a response for OIG Evaluation                                                  59

  HOTLINE ACTIVITY

  Hotline calls, emails, letters, and other complaints*                                                                          888
  Hotline calls, emails, letters, and other complaints predicated                                                                254
  Unresolved Hotline predications from previous reporting period                                                                  17
      Total Hotline predications                                                                                                 271
  Hotline predications transferred to the Management Referral System                                                             138
  Hotline predications closed based upon preliminary OIG activity                                                                114
  Hotline predications pending disposition                                                                                        19
      Total Hotline predications                                                                                                 271
* The figure includes complaints outside the purview of the Office of Inspector General. The complainants were referred to the
  appropriate Federal, State, local, or private organization for assistance, if applicable.




                                                                                  APRIL 1, 2009 – SEPTEMBER 30, 2009               35
                                                              SEMIANNUAL
                                                              REPORT TO CONGRESS




                         Summary of Investigative Activities
                                        April 1, 2009 – September 30, 2009

  Cases open as of April 1, 2009                                                                                                         209

  Cases opened during period                                                                                                              74

  Cases closed during period                                                                                                              70

  Multi-Agency Task Force Cases Opened                                                                                                    18

  Qui Tam investigations opened                                                                                                            1

       Total Open Qui Tam investigations as of September 30, 2009                                                                         16

  Cases currently open as of September 30, 2009                                                                                          213

  IMPACT OF INVESTIGATIONS:

        Administrative discipline and other management actions                                                                            62

        Recommendations to management for positive change and other actions                                                               34

        Suspensions/Debarments                                                                                                            21

        Accepted for prosecution*                                                                                                         19

        Indictments                                                                                                                       10

        Criminal convictions                                                                                                              14

        Pretrial diversions                                                                                                                1

        Civil actions                                                                                                                      5

  TOTAL DOLLAR IMPACT**                                                                                                            $8,094,878
  (Fines, settlements, recoveries)

*Some of the investigations accepted during the 6-month period were referred for prosecution during a previous reporting period.
**Some of the money collected was the result of task force investigations.




  36      OFFICE OF INSPECTOR GENERAL
                                              SEMIANNUAL
                                              REPORT TO CONGRESS




Feedback Sheet

The contents of the September 2009 Semiannual Report to Congress comply with the
requirements of the Inspector General Act of 1978, as amended. If you have any suggestions
for making the report more responsive, please complete this feedback sheet and return it to:

        United States Department of Energy
        Office of Inspector General (IG-1)
        Washington, D.C. 20585

        ATTN: Felicia Jones




Name: ____________________________________________________________________________


Daytime Telephone Number: _____________________________________________________


Comments/Suggestions/Feedback:
(Please attach additional sheets if needed)




For media inquiries, please dial (202) 253-2162 for assistance.



                                                           APRIL 1, 2009 – SEPTEMBER 30, 2009   37
This page intentionally left blank.
       U.S. Department of Energy

       Office of Inspector General



                       HOTLINE

       Call the HOTLINE if you suspect
Fraud, Waste, Abuse, or Mismanagement
             by a DOE Employee,
        Contractor, or Grant Recipient



                 Call
   1-800-541-1625 or (202) 586-4073

Additional information on the OIG and reports can be found at
                    www.ig.energy.gov




               U.S. Department of Energy
               1000 Independence Avenue, S. W.
                   Washington, DC 20585
